September 2005
Report No. 05-033


Response to Privacy Program
Information Request in OMB’s Fiscal
Year 2005 Reporting Instructions for
FISMA and Agency Privacy Management




             AUDIT REPORT
                                                                                     Report No. 05-033
                                                                                     September 2005



                                     Response to Privacy Program Information
                                     Request in OMB’s Fiscal Year 2005 Reporting
                                     Instructions for FISMA and Agency Privacy
                                     Management
Background and Purpose
of Audit                             Results of Audit
A number of federal statutes,
                                     The FDIC has taken a number of actions to protect information in an
policies, and guidelines are aimed
at protecting information in an      identifiable form (IIF) since the passage of the Privacy Act of 1974.
identifiable form from               Such actions include establishing corporate policies and procedures to
unauthorized use, access,            safeguard IIF, identifying corporate Privacy Act systems of record that
disclosure, or sharing and           contain IIF and publishing related notices in the Federal Register, and
protecting associated information    posting a privacy statement on the FDIC’s public Web site.
systems from unauthorized            Additionally, control improvements were underway at the time of our
access, modification, disruption,    audit. These included appointing a Chief Privacy Officer and Privacy
or destruction. Key federal          Program Manager to oversee and implement the Corporation’s privacy
statutes include the Privacy Act     program and implementing a privacy Web site to promote awareness
of 1974, section 208 of the          among employees and contractor personnel regarding privacy
E-Government Act of 2002, and
                                     requirements, policies, and practices. In addition, the FDIC
section 522 of the Transportation,
Treasury, Independent Agencies,      strengthened controls over IIF in hardcopy format by providing
and General Government               additional shredding bins throughout its headquarters offices to
Appropriations Act, 2005.            securely dispose of sensitive data.

This audit was conducted in          The above actions were positive; however, the FDIC needed to
response to a request for privacy    complete a number of ongoing initiatives to ensure adequate protection
program information contained in     of employee IIF and compliance with federal privacy-related statutes,
the Office of Management and         policies, and guidelines. Specifically, the FDIC needed to complete
Budget’s (OMB) June 13, 2005         ongoing efforts to:
memorandum entitled, FY 2005
Reporting Instructions for the
Federal Information Security
                                        •   identify all FDIC-maintained IIF and take appropriate actions to
Management Act and Agency                   ensure this information is properly protected;
Privacy Management.                     •   review privacy policies and procedures to ensure they are
                                            current, comprehensive, and complete; and
The objective of the audit was to       •   implement a corporate-wide training and education program,
determine the current status of
                                            including job-specific training where appropriate.
the FDIC’s efforts to implement a
corporate-wide privacy
management program.                  The FDIC also needed to execute contractor confidentiality agreements
                                     as prescribed by FDIC policy.

                                     We made no recommendations in this report because the FDIC is
                                     taking steps to establish a comprehensive privacy program.




To view the full report, go to
www.fdicig.gov/2005reports.asp
Federal Deposit Insurance Corporation                                                                            Office of Audits
801 17th Street NW, Washington, DC 20434                                                            Office of Inspector General


DATE:                               September 16, 2005

MEMORANDUM TO:                      Michael E. Bartell, Chief Privacy Officer and
                                    Director, Division of Information Technology




FROM:                               Russell A. Rau
                                    Assistant Inspector General for Audits

SUBJECT:                            Response to Privacy Program Information Request in OMB’s
                                    Fiscal Year 2005 Reporting Instructions for FISMA and Agency
                                    Privacy Management
                                    (Report No. 05-033)


The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General (OIG) has
completed an audit of the status of the FDIC’s privacy program and related activities. This audit
was conducted in response to a request for privacy program information contained in the Office of
Management and Budget’s (OMB) June 13, 2005 memorandum entitled, FY 2005 Reporting
Instructions for the Federal Information Security Management Act and Agency Privacy
Management. We are providing the results of this audit to you in your capacity as the FDIC’s Chief
Privacy Officer (CPO). The objective of the audit was to determine the current status of the FDIC’s
efforts to implement a corporate-wide privacy management program. We are providing you our
responses to specific security-related questions in the referenced OMB memorandum, along with
our independent security evaluation report required by the Federal Information Security
Management Act of 2002 (FISMA) under separate cover.1

BACKGROUND

A number of federal statutes, policies, and guidelines are aimed at protecting information in an
identifiable form (IIF)2 from unauthorized use, access, disclosure, or sharing and associated
information systems from unauthorized access, modification, disruption, or destruction. A brief
description of key privacy-related statutes, policies, and guidelines and their applicability to the
FDIC follows.


1
    Responses to Security-Related Questions Raised in OMB’s Fiscal Year 2005 Reporting Instructions for FISMA and
    Agency Privacy Management (Report No. 05-034), dated September 16, 2005; and Independent Evaluation of the
    FDIC’s Information Security Program-2005 (Report No. 05-040), scheduled for issuance on September 30, 2005.
2
    OMB defines “information in an identifiable form” as information in a system or on-line collection that directly
    identifies an individual (e.g., name, address, social security number (SSN) or other identifying code, telephone
    number, e-mail address, etc.) or by which an agency intends to identify specific individuals in conjunction with other
    data elements.
      •    The Privacy Act of 1974 imposes various requirements on federal agencies whenever they
           collect, create, maintain, and distribute records (as defined in the Act, and regardless of
           whether they are in hardcopy or electronic format) that can be retrieved by the name of an
           individual or other identifier. One of these requirements is to publish notices in the Federal
           Register that include information such as the categories of records maintained in the agency
           systems, the routine uses of the records, and the manner in which individuals may access the
           information. As a federal agency for this purpose, the FDIC is subject to the requirements
           of the Act.
      •    The E-Government Act of 2002, section 208, requires agencies to (1) conduct privacy
           impact assessments (PIA) of information systems and collections and, in general, make
           PIAs publicly available; (2) post privacy policies on agency Web sites used by the public;
           (3) translate privacy policies into a machine-readable format; and (4) report annually to the
           OMB on compliance with section 208. The FDIC has determined that section 208 applies
           to the Corporation.
      •    Section 522 of the Transportation, Treasury, Independent Agencies, and General
           Government Appropriations Act, 20053 requires, among other things, that agencies
           protect IIF, designate a CPO, conduct PIAs under appropriate circumstances, report to the
           Congress and agency IG on privacy matters, and provide training to employees on privacy
           and data protection policies. Section 522 also requires that every 2 years, the agency IG
           contract with an independent third party to conduct a review of the agency’s privacy
           program and practices and that the IG issue a report based on that review. Agencies must
           establish comprehensive privacy and data protection procedures by December 2005. The
           FDIC has determined that section 522 applies to the Corporation.
      •    OMB Circular No. A-130, Management of Federal Information Resources, Appendix I,
           Federal Agency Responsibilities for Maintaining Records About Individuals, describes
           agency responsibilities for implementing the reporting and publication requirements of the
           Privacy Act of 1974. The FDIC has determined that OMB Circular No. A-130, Appendix I,
           applies to the Corporation and has designated a senior agency official for privacy as
           discussed below. Subsequent OMB policy4 provides additional information regarding
           agency responsibilities for designating a senior agency official for privacy, conducting PIAs,
           developing privacy policies for Web sites, providing privacy education to employees and
           contractor personnel, and reporting privacy activities.


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine the current status of the FDIC’s efforts to implement a
corporate-wide privacy management program. To accomplish our objective, we relied on
professional services provided by KPMG LLP (KPMG). KPMG’s work included interviewing key
FDIC officials with privacy responsibilities; reviewing relevant FDIC policies, procedures and
documentation; and performing other appropriate audit procedures. As part of our oversight of

3
    This Act is division H of the Consolidated Appropriations Act, 2005, Public Law No. 108-447.
4
    Such policy includes OMB Memorandums M-03-22, OMB Guidance for Implementing the Privacy Provisions of the
     E-Government Act of 2002, and M-05-08, Designation of Senior Agency Officials for Privacy.



                                                        2
KPMG, we evaluated the nature, timing, and extent of work described in its evaluation program,
obtained an understanding of KPMG’s methodologies and assumptions, attended key meetings,
monitored progress throughout the evaluation, and performed other procedures we deemed
necessary. In this manner, we were assured that KPMG's work complied with generally accepted
government auditing standards (GAGAS).

The limited nature of our work did not require that we separately perform procedures to review
program performance measures, assess the FDIC’s compliance with laws and regulations, evaluate
the FDIC’s internal control, or assure ourselves that computer-based data were valid and reliable. In
addition, we did not design specific audit procedures to detect fraud; however, throughout our work,
we were sensitive to the potential for fraud, waste, abuse, and mismanagement. We performed our
work at the FDIC's headquarters offices in Washington, D.C., and Arlington, Virginia, during the
period July through August 2005. On September 14, 2005, the FDIC Privacy Program Manager
provided updated information regarding progress on the FDIC’s privacy program, which we
included in the report. We conducted our work in accordance with GAGAS.


STATUS OF THE FDIC’S PRIVACY PROGRAM AND PRACTICES

The FDIC has taken a number of actions to protect IIF since the passage of the Privacy Act of 1974.
Such actions include establishing corporate policies and procedures to safeguard IIF, identifying
corporate Privacy Act systems of record that contain IIF and publishing related system of record
notices in the Federal Register, and posting a privacy statement on the FDIC’s public Web site. In
addition, the OIG has conducted reviews of, and reported on, the FDIC’s privacy program practices
in recent years.5 These reviews have focused on the FDIC’s efforts to safeguard employee IIF;
control the use of SSN information for non-employees (such as depositors, debtors, and loan
guarantors); and ensure the adequacy of privacy and security disclosure statements on the
Corporation’s Web sites. Generally, these reviews concluded that the FDIC had taken measures to
safeguard IIF, but that important control improvements were needed. Finally, the OIG performed
an annual independent evaluation of the FDIC’s information security program as required by
FISMA that included determining whether the FDIC had implemented controls that maintain
appropriate confidentiality of information resources.

The FDIC has taken recent action to strengthen its privacy program and practices, and additional
control improvements were underway at the time of our audit. In March 2005, in response to
passage of section 522, the FDIC appointed a senior official, the Director, Division of Information
Technology (DIT), as the FDIC’s CPO with overall responsibility for the Corporation’s privacy
program. The Director was also designated as the senior agency official for privacy in accordance
with OMB policy. The FDIC also designated a Privacy Program Manager in April 2005 to support
the CPO in developing and implementing corporate privacy requirements. In addition, the FDIC
implemented a privacy Web site to promote awareness among FDIC employees and contractor
personnel regarding privacy requirements, policies, and practices. In September 2005, a public Web

5
    Reports entitled, FDIC’s Privacy and Security Notices-Requirements and Policy Statements on the Internet and
    Intranet, dated May 19, 2000 (Report No. 00-004); FDIC’s Information Handling Practices for Sensitive Employee
    Data, dated October 11, 2000 (Report No. 00-006); and Control Over the Use and Protection of Social Security
    Numbers by Federal Agencies, dated February 14, 2003 (Report No. 03-012).



                                                          3
site was launched to provide information regarding the Privacy Act and privacy policies of the
FDIC. The Web site includes information about employee responsibilities, disclosure procedures,
privacy program contacts, and PIAs. Further, the FDIC strengthened controls over IIF in hardcopy
format by providing additional shredding bins throughout its headquarters offices to securely
dispose of sensitive data. These actions were positive; however, the FDIC needed to complete a
number of ongoing initiatives to ensure adequate protection of employee IIF and compliance with
federal privacy-related statutes, policies, and guidelines. A brief summary of the FDIC’s key
privacy initiatives follows.

   •   Identifying FDIC-maintained IIF. DIT personnel performed a preliminary assessment of
       the FDIC’s major information systems during our audit to determine which systems process
       SSNs. Based on the results of the assessment, DIT will determine whether controls in the
       major information systems sufficiently protect employee SSNs and will take any needed
       corrective action. In addition, DIT, together with the FDIC’s divisions and offices, recently
       initiated a corporate effort to identify SSNs maintained in electronic and hardcopy format
       outside of the FDIC’s major information systems. Such SSN data may be stored or
       processed by organizational units in locally maintained systems, databases, spreadsheets,
       and documentation. Following the completion of this corporate-wide analysis, the FDIC
       plans to take appropriate steps to ensure that all FDIC-maintained SSN data is adequately
       protected.

   •   Policies and Procedures. In December 2004, the FDIC modified its Standard Operating
       Procedures for Processing Sensitivity Assessment Questionnaires to include privacy
       considerations. The FDIC plans to apply these revised procedures to all of its applications
       over the next several years. The FDIC also developed a PIA guide and template for
       preparing PIAs in July 2005. At the time of our audit, the FDIC had completed a PIA on
       only 1 (the Corporate Human Resources Information System) of the 26 information systems
       that DIT had identified as containing SSNs and was working to complete PIAs on the
       remaining information systems. The Privacy Program Manager advised us that PIAs had
       been completed on 25 of 26 information systems as of September 14, 2005 and that the
       FDIC was working to complete a PIA on the remaining information system. The FDIC may
       need to complete or amend and publish, as necessary, PIAs or Privacy Act based on the
       results of its efforts to identify SSNs maintained throughout the Corporation. Additionally,
       according to the Privacy Program Manager, the CIO Council is reviewing a proposed
       modification to its charter to add a privacy advisory role to provide a forum for privacy
       issues. The FDIC is continuing to review its privacy policies and procedures to ensure they
       are current, comprehensive, and complete. Where additional or revised procedures are
       needed, the FDIC plans to take appropriate corrective action.

   •   Training. The FDIC is working to develop a corporate-wide training and education
       program to increase employee and contractor awareness of their responsibilities regarding
       the protection of IIF. To comply with federal privacy policy, the FDIC will need to provide
       individuals in trusted roles with job-specific training. According to the Privacy Program
       Manager, privacy training was held for members of the CIO Council on September 6, 2005.
       Privacy training is planned for members of the Operating Committee in October 2005.
       Also, the FDIC plans to begin mandatory privacy training for all employees and contractors




                                                 4
        during the week of September 19, 2005. Finally, FDIC information security managers for
        three major information systems stated that they were modifying their application-specific
        security training to address privacy.

    •   Privacy Reviews and Evaluations. The FDIC’s Privacy Program Manager stated that the
        FDIC had reviewed its corporate documentation and contracts in the prior fiscal year as
        required by OMB Circular No. A-130, Appendix I. These reviews included determining
        compliance with specific provisions of the Privacy Act of 1974. However, during our audit,
        the FDIC was in the process of documenting the results of these reviews. Subsequent to our
        fieldwork, the Privacy Program Manager informed us that these reviews had been
        completed and documented. In addition, section 522 requires the FDIC to prepare several
        reports and reviews. For example, the CPO must conduct PIAs of systems containing IIF
        and prepare a report to the Congress annually on the activities that affect privacy. Also, a
        written report of the FDIC’s use of IIF along with its privacy and data protection policies
        and procedures is required to be recorded with the IG to serve as a benchmark for the
        agency. Finally, section 522 requires the FDIC to perform an independent third-party
        review of the privacy and data protection procedures of the agency. This review will be
        performed through the OIG and includes, among other things, ensuring that all technologies
        for collecting, using, storing, and disclosing information allow for continuous auditing of
        compliance with privacy policies and practices.

As reported in our independent security evaluation required by FISMA, FDIC contractor personnel
were not routinely executing confidentiality agreements as prescribed by FDIC contracting policy
and information technology (IT) service contracts. The FDIC’s standard IT service contract
language requires contractors, subcontractors, and their employees to sign confidentiality
agreements. Confidentiality agreements are designed to hold contractor personnel accountable for
maintaining the confidentiality of FDIC information, data, and systems provided under a contract.
We found that oversight managers and contract specialists generally were not obtaining the
agreements from the contractor and contract personnel.

Privacy has been and continues to be of significant concern to the public and the Congress. Recent
reports of unauthorized disclosure of IIF in the financial services industry, as well as a recent report
of unauthorized access to IIF on a large number of current and former FDIC employees, highlight
the criticality of an effective and comprehensive privacy management program. The OIG will
continue to work with the Corporation throughout the coming year to ensure that appropriate
privacy controls are in place to safeguard all the FDIC’s IIF. We made no recommendations in this
report because the FDIC is taking steps to establish a comprehensive privacy program.




                                                   5
